u.s. DEPARTMENT OF COMMERCE
          Office ofInspector General




                     United States
      Patent and Trademark Office

       S"ongerAfanagementCon"o~
                Needed over USPTO's
   Projection ofPatent Fee Collections



                  Final Report OIG-11-014-A

                           December 14, 2010




      FOR PUBLIC RELEASE

                Office ofAudit and Evaluation
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                    The Inspector General
                                                    Washington. D.C. 20230




December 14,20 I0



MEMORANDUM FOR:                David J. Kappos, Under Secretary of Commerce for
                                 Intellectual Property and Director, United States
                                 Patent and Trademark Office



FROM:
                               1'~3~
                               Todd J. Zinser

SUBJECT:                       Audit Report No. OIG-II-O 14-A, Stronger Management
                                 Controls Needed over USPTO's Projections oj'
                                 Patent Fee Collections


This memorandum transmits the final report of our audit of USPTO's process for projecting
patent fee collections. The purpose of this audit was to determine whether USPTO has an
effective process for projecting patent revenue that enables it to meet its mission and strategic
goals for patents.

We briefed your staff regarding our findings and recommendations on August 19, 2010, and
provided you with a draft report on September 9. In short, we found that USPTO has consistently
over- and underestimated the amount of specific patent fees it will collect in a given fiscal year.
As a result, stakeholders such as the Secretary, USPTO managers and executives, and the
Congress, may not have clear expectations of what the agency will be able to fund because the
differences between the estimated and actual patent fee collections have fluctuated considerably.
We make a series of recommendations for stronger management controls that would enhance
transparency and accountability in this very important area.

Your November 19 response to our draft report concurred with our recommendations. We have
summarized the response in our report and included it in its entirety as an appendix. Separately,
you provided technical comments, which we addressed in the report as appropriate. The report
will be posted on our website pursuant to section 8L of the Inspector General Act of 1978, as
amended.
In accordance with Department Administrative Order 213-5, please provide us with an audit
action plan within 60 days of the date of this memorandum. We extend our appreciation to
USPTO for the courtesies shown to us during our work. If you have any questions, please contact
me at 202-482-4661 or Ronald C. Prevost, Ph.D., Assistant Inspector General for Economic and
Statistical Program Assessment, at 202-482-3052.



cc:    Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration
       Anthony P. Scardino, Chief Financial Offtcer, USPTO
       Mark Olechowski, Deputy Chief Financial Officer, USPTO
       Robert L. Stoll, Commissioner for Patents, USPTO
       Welton Lloyd, Audit Liaison, Office of Corporate Planning, USPTO



Attaclunent
                             Report In Brief
                                   U.S. Department of Commerce, Office of Inspector General
                                                       December 14, 2010

Why We Did This Review United States Patent and Trademark Office

The U.S. Patent and Trade-
mark Office (USPTO) is a
                                 Stronger Management Controls Needed over USPTO’s
fully fee-funded agency. As      Projection of Patent Fee Collections (OIG-11-014-A)
such, its fees must fund its
operations. In such an envi-     What We Found
ronment, it is especially
important that USPTO             For fiscal years 2006 through 2009, USPTO experienced significant disparities between
assures its stakeholders that    projected and actual patent fee collections; these ranged from shortfalls of about $56.6
the best available fee collec-   million in FY 2006 to $171 million in FY 2009 (not a typical year for the economy).
tion projections are devel-
oped and used. Without such    USPTO does not have clear guidance or a disciplined, documented process for fore-
                               casting patent fee collections. According to officials, keeping the overall process of
assurances, the agency risks
                               developing projections “fluid” is the reason that a deliberate decision was made not
having to adjust spending in   to have mandated guidance or documentation. The patent production model, which
ways that could disrupt key    generates data used to project fee collections, also lacks management controls such as
operations and initiatives to  written policies and procedures. Without these, it is difficult for USPTO to learn from
improve patent quality and     the variances between forecasts and actual collections, and how to reduce them. As a
timeliness.                    result, in this operational environment, stakeholders may not have clear expectations
                               of what the agency will be able to fund because the differences between the estimated
Our objective was to deter- and actual patent fee collections have fluctuated considerably. Stronger management
mine whether USPTO has an controls would, therefore, enhance transparency and accountability.
effective process for project-
                               While the aggregate differences between projections and collections appear to be within
ing patent revenue and that
                               a generally acceptable margin of forecasting error, such data actually mask much greater
enables it to meet its mis-    differences for individual fees (of which there are almost 250). USPTO has repeatedly
sion and strategic goals for over- and underestimated the amount of specific patent fees that it will collect in a given
patents.                       year, sometimes by as much as 20 to 50 percent. These differences mask discrepancies
                               of tens of millions of dollars annually for certain fees.

Background                     During the time of our review, the patent application backlog grew from 701,000 to
                               nearly 736,000. Similarly, the amount of time it took to reach a decision on a patent
USPTO is the sole federal      application grew between FY 2006 and FY 2009 from about 31 months to about 35
agency responsible for         months. While not demonstrably connected to forecast accuracy and transparency, a
                               better forecasting process would give stakeholders more comprehensive data with which
granting patents and register-
                               to develop expectations. As USPTO implements a new strategic plan, a framework
ing trademarks, part of the    recognizing the importance of risks associated with variances in fee-collection forecasts
nation’s intellectual prop-    will be increasingly important.
erty system. Patents--which
account for most of the
                               What We Recommend
agency’s work--give inven-
tors exclusive rights to their
discoveries and contribute to In order to strengthen USPTO operations over patent fee forecasting, we are making
                               three detailed recommendations to the Under Secretary of Commerce for Intellectual
the U.S. economy’s vitality
                               Property/USPTO Director. These entail (1) directing the agency’s Chief Financial
and strength. Fiscal year      Officer (CFO) to establish and implement written policies and procedures for develop-
(FY) 2009 patent fees of       ing fee-collection forecasts; (2) requiring the CFO to annually report on the variances
$1.7 billion accounted for     between projected and actual patent fee collections, including their causes and any noted
about 90 percent of USPTO’s trends; and (3) directing the Commissioner for Patents to establish and implement writ-
total annual fee collection.   ten policies and procedures for the patent production model.
U.S. Department of Commerce                                                                                       Final Report OIG-11-014-A
Office of Inspector General                                                                                               December 14, 2010


                                                                   Contents


Introduction ..................................................................................................................................... 1
Findings and Recommendations ..................................................................................................... 3
Stronger Management Controls Would Enhance Accountability and Transparency in USPTO’s
  Projection of Patent Fee Collections ........................................................................................... 3
      Documentation Lacking for Projecting Patent Fee Collections ............................................. 3
      Documentation Lacking for Patent Production Model ........................................................... 4
      Aggregate Patent Fee Data Mask Differences between Projected and Actual Fee Collections
      ................................................................................................................................................. 4
      An Enhanced Control Environment over Patent Fee Forecasting Would Strengthen
      Operational and Strategic Planning ....................................................................................... 6
Conclusion and Recommendations ................................................................................................. 7
Summary of USPTO Comments and OIG Response ..................................................................... 8
Appendix A: Scope and Methodology............................................................................................ 9
Appendix B: Differences between Projected and Actual Patent Fee Collections for USPTO’s
   Three Largest Fee Categories ................................................................................................ 10
Appendix C: Agency Response .................................................................................................... 14
U.S. Department of Commerce                                                               Final Report OIG-11-014 -A
Office of Inspector General                                                                        December 14, 2010


 
                                                               Introduction
An agency within the Department of Commerce, the United States Patent and Trademark Office
(USPTO) is responsible for ensuring that the intellectual property system within the United
States contributes to a strong global economy, encourages investment in innovation, and fosters
an entrepreneurial spirit. USPTO accomplishes this mission by serving as the sole federal agency
responsible for granting patents and registering trademarks. Patents, which account for the
majority of USPTO’s work, provide inventors with
exclusive rights to their discoveries and contribute to
the strength and vitality of the U.S. economy.               What Is a Patent?
As a fully fee-funded agency, USPTO relies upon the                           A patent for an invention is
patent and trademark fees it collects to fund its                             the grant of a property right
operations and fulfill its mission. These fees are used to                    to the inventor, usually for
support all segments of USPTO operations, including                           20 years from the patent
staffing, information technology systems, and training.                       application’s U.S. filing date
Patent fees of $1.7 billion accounted for approximately                       and subject to the payment
                                                                              of maintenance fees. The
90 percent of USPTO’s annual fee collections in fiscal
                                                                              patent confers the right to
year (FY) 2009. 1 Patent fee projections play an integral                     exclude others from
role in planning for upcoming operations and informing                        making, using, offering for
stakeholders—such as the Secretary, agency managers                           sale, selling, or importing
and executives, and the Congress—about what the                               the invention. Once USPTO
agency plans to accomplish. Without assurances that the                       issues a patent, the
best available projections for patent fee collections are                     patentee must enforce the
being used, USPTO risks having to adjust spending in                          patent without aid from
ways that would disrupt key initiatives to improve                            USPTO.
patent quality and timeliness and hinder its ability to
accomplish its goals.
In FY 2009, USPTO collected approximately $171 million less in patent fee collections than
estimated in the FY 2009 budget. While this significant shortfall occurred during a time of
economic recession, it raised concerns about USPTO’s overall budget process. During the same
time that the backlog of patent applications awaiting review had grown to almost 736,000, the
average time to review patent applications had increased to almost 35 months.
This audit’s objective was to determine whether USPTO has an effective process for projecting
revenue and expenses for its patent operations that enables it to meet its operating costs and
achieve its mission and strategic goals for patents. Because the patent fee projections play an
integral role in operational and strategic planning, we focused on USPTO’s process for
developing patent fee forecasts. We met with USPTO program officials about the process for
projecting patent fee collections and analyzed data on projected and actual patent fee collections
for FYs 2006–2009. Appendix A outlines in further detail the scope and methodology we
followed for this audit.
                                                            
1
    Congress, through statute, sets the majority of USPTO’s patent fees; it also sets spending ceilings for USPTO
    through the annual appropriations process.
U.S. Department of Commerce                                              Final Report OIG-11-014-A
Office of Inspector General                                                      December 14, 2010


Summary of Findings
USPTO funds operations with the fees it collects, necessitating clear guidance and a disciplined
and documented process for forecasting patent fee collections. The agency, however, lacks
documented management controls over its patent fee forecasting operations. In the process,
USPTO has consistently over- and underestimated the amount of specific patent fees it will
collect in a given fiscal year. While the aggregate differences between projections and
collections appear to be within a generally acceptable margin of forecasting error, such data
actually mask much greater differences for individual fees (of which there are almost 250). For
example, one fee was over its estimate by 30-55 percent between 2006 and 2009; another fee
was under its estimate during those years by 35-42 percent. When actual fee collections do not
reach projected levels, USPTO must respond with spending reductions that, in turn, affect the
agency’s ability to sustain and improve its patent operations. More transparent forecasts—
including the assumptions and uncertainties about revenue streams—would have provided
internal and external stakeholders with more realistic expectations of what could and could not
be accomplished, and supported decision making necessary to institute a stable funding and
budgeting process.




                                                2 
 
U.S. Department of Commerce                                                               Final Report OIG-11-014-A
Office of Inspector General                                                                       December 14, 2010


                                                  Findings and Recommendations

Stronger Management Controls Would Enhance Accountability and
Transparency in USPTO’s Projection of Patent Fee Collections
As a fee-funded agency, USPTO may only spend what it collects in patent and trademark fees.
Operating solely with these fees, USPTO develops its budget and spending plans based upon its
operating requirements and its projected fee collections. If the agency’s estimated fee collections
and projected revenues do not materialize, the agency must make management decisions to
adjust fee rates or modify performance requirements, which ultimately disrupt the patent review
process.
In fiscal years 2006 through 2009, total patent fees collected by USPTO have been less than
projected. Forecasting any type of revenue collection is difficult and is not an exact science, as
forecasts can include assumptions about future economic events and policy decisions.
Differences between forecasts and actual collections naturally occur 2 and should be reported, as
they directly affect budgeting and spending plans. Therefore, strong management oversight and
controls are necessary to guide forecasting and ensure accountability and transparency.


Documentation Lacking for Projecting Patent Fee Collections
Responsibility for projecting collections from approximately 250 different patent fees rests with
the Forecasting and Analysis Division within the Office of Corporate Planning/Office of the
Chief Financial Officer. The staff includes a director, three economists, a statistician, and a
budget analyst. The collection forecasts for each of the fees are developed using data as well as
professional judgment.
This important segment of USPTO operations lacks management controls, such as operational
policies and procedures, for projecting patent fee collection. According to USPTO officials, no
documented process currently exists for developing fee projections; this is deliberate, to ensure
that the development process remains fluid. Yet the lack of written guidance and documentation
prevents agency management from ensuring that reliable and timely information is available to
guide decision making; similarly, analyzing and reporting risks associated with the projections to
internal and external stakeholders becomes difficult at best.
For those patent fee collections that were either much greater or much less than projected,
USPTO could not provide any documented analysis of these variances or whether it had
identified opportunities to narrow them. Further, USPTO does not document any work processes
related to reconciling assumptions and components of fee forecasts to actual collections. Without
such documented reconciliation of projected fee collections to actual collections and analysis of
the underlying components used to forecast collections, managers cannot compare actual

                                                            
2
    There is no set standard for what constitutes an acceptable variance between projected and actual revenues. Based
    upon a review of budget forecasting literature, the degree of accuracy needed or the margin of error tolerated—
    usually within 5 percent of actual receipts—is generally deemed reasonable.


                                                               3 
 
U.S. Department of Commerce                                                             Final Report OIG-11-014-A
Office of Inspector General                                                                     December 14, 2010


performance with planned or expected results, nor can they analyze significant differences to
identify any risk or potential flaws in the existing fee-projection methodology. Therefore, the
agency cannot provide documentation to support or defend what actions should be taken to limit
the differences between projected and actual collections.
USPTO officials noted that staff needs to provide forecasts for current and upcoming years and
that they are not always available to provide retrospective analysis. For example, a few years
ago, an economist prepared supporting statistical and econometric analyses; however, after that
individual left the agency, the position remained vacant and staff was not available to complete
this work. Further, USPTO has not conducted any external validation or internal reviews of the
forecasting model used to project fee collections. Such a periodic external validation would not
only provide the organization with independent validation of formulas and calculations, but
would also identify areas for improvement in the model.


Documentation Lacking for Patent Production Model
USPTO's patent production model, 3 which generates data related to patent production, is one of
the many sources of data used to project patent fee collections. Patent production model outputs
used for fee forecasting include the expected number of patents to be allowed and the number of
initial decisions on a patent application. These and other model outputs are associated with
activities for which USPTO then charges fees. However, USPTO lacks management controls
over the model, including written policies and procedures for its operations.
When asked to provide any written documentation regarding policies and procedures for the
patent production model, USPTO officials referenced only the 100+ pages of computer
programming code and provided no further written documentation. USPTO could not, then,
document any management directives regarding the model; roles and responsibilities for the
model and its outputs; data sources to be used in the model; requirements for documenting and
explaining any changes made to the model and the rationale for those changes; oversight
functions for the model; or requirements for periodic internal and external assessments of the
model. Such tools are necessary to ensure that USPTO obtains, maintains, reports, and uses
reliable and timely information for decision making; they likewise provide for continuity of
operations and assist the agency in appropriately carrying out management directives.


Aggregate Patent Fee Data Mask Differences between Projected and Actual Fee
Collections
From FY 2006 through FY 2009, the total amount of patent fees collected was less than what
USPTO had originally projected in the President’s annual budget submissions (see figure 1).
Although patent fee collections had grown to about $1.7 billion in FY 2009, the collections were
between $56.6 million and $78.5 million less than projected during FYs 2006, 2007, and 2008.


                                                            
3
    The patent business area within USPTO primarily uses this simulation tool to plan and manage patent examination
    operations and to support budget requests. 

                                                               4 
 
U.S. Department of Commerce                                                                                     Final Report OIG-11-014-A
Office of Inspector General                                                                                             December 14, 2010


                                                                                      In FY 2009, patent fee collections were
      Figure 1. Dollar Differences Between                                            $171 million less than what USPTO had
        Actual and Projected Patent Fee                                               originally projected in the President’s FY
           Collections ($ in millions)                                                2009 budget. This 9-percent difference was
       $0                                                                             much greater than the 3–5-percent
     ‐$25                                                                             difference of previous years, due in part to
     ‐$50                                                                             the worldwide economic downturn.
     ‐$75                                                                             These differences, when examined in the
    ‐$100                                                                             aggregate (except for FY 2009) show
    ‐$125                                                                             USPTO to be operating within a generally
                                                                                      accepted margin of forecasting error.
    ‐$150
                                                                                      However, the aggregate data mask much
    ‐$175                                                                             greater differences between the projected
                  FY 2006             FY 2007             FY 2008   FY 2009           and actual fee collections for individual
                                                                                      patent fees, with the differences translating
     Source: OIG based on USPTO data                                                  into tens of millions of dollars for USPTO’s
                                                                                      budget and spending plans.

To further identify the differences in disaggregated fee data, we analyzed eight fees, which
represent approximately half of USPTO’s annual patent fee collections.4 For three of the eight
fees, projected collections were near the
amount collected, while for four of the           Figure 2. Projected and Actual Fee
fees, the amounts collected were less than    Collections for "Requests for Continued
projected. In one case, collections were             Examination" ($ in millions)
more than projected. Appendix B contains      $100 
detailed information on the eight patent
fees analyzed.
Collections for one patent fee, “request for                                   $75 
continued examination”, consistently                                                                                    Projected 
surpassed projections by more than 30                                                                                   Collections
percent (see figure 2). Patent applicants                                                                               Actual Collections
pay this fee when asking USPTO to                                              $50 
continue to examine a patent application
after the agency has made an initial
decision to close the review and not grant
                                                                               $25 
a patent. USPTO’s collections from this
                                                                                         FY   FY  FY    FY 
one fee almost doubled from FY 2006 to
                                                                                        2006 2007 2008 2009
FY 2009, from $47 million to $92 million,
and annually account for 3–6 percent of
                                                                              Source: OIG based on USPTO data
USPTO’s total patent fee collections. The
                                                            
4
    We did not independently evaluate the models or the data used; rather, we reviewed any existing agency process
    and documentation to assess whether management controls were in place to provide an overall structure to the
    process and to require mechanisms for analyzing the models and identifying and reporting the risks associated with
    possible forecasting differences.

                                                                              5 
 
U.S. Department of Commerce                                                                    Final Report OIG-11-014-A
Office of Inspector General                                                                            December 14, 2010


agency underestimated projected collections by 30–55 percent, which translated into USPTO’s
collecting an additional $14 million to $33 million. According to USPTO officials, they had
anticipated some growth and then a leveling off of the growth rate for these requests. However,
agency officials could not provide any written analysis regarding the continued large gap
between projected and actual collections for this fee.

Conversely, collections for one type of patent
                                                                     Figure 3. Projected and Actual Fee
application fee were consistently 35 percent
                                                                      Collections for "Applications with
less than what was projected. This fee, for
                                                                     More than 20 Claims" ($ in millions)
patent applications for which the total number
of claims exceeds 20, 5 annually accounts for                       $90 
2–4 percent of USPTO’s patent fee collections
(see figure 3). From FY 2006 to FY 2009, the
                                                                    $75 
agency typically collected about $35 million–
$50 million for this fee, yet this was up to 42
percent less than projected. These differences                                                                  Projected 
                                                                    $60 
resulted in USPTO’s collecting $21 million–                                                                     Collections
$29 million less than projected for this fee.                                                                   Actual 
USPTO staff explained that the agency                               $45                                         Collections
modified its formula for projecting collections
from this fee, but these expected changes that
would affect collections did not occur to the                       $30 
extent anticipated. As with the requests for                                 FY   FY   FY   FY 
continued examination, USPTO could not                                      2006 2007 2008 2009
provide any written analysis regarding the
continued large gap between projected and                            Source: OIG Based on USPTO data
actual collections for this fee.

An Enhanced Control Environment over Patent Fee Forecasting Would Strengthen
Operational and Strategic Planning
In organizations that operate on reimbursable funding streams, revenue forecasting plays an
integral role in organizational decision making by establishing the anticipated funding levels for
upcoming budgets and laying the foundation of an organization’s long-term planning and
development. At USPTO, the patent fee forecasts are vital to the agency’s planning process.
They provide the critical framework for informing key internal and external stakeholders about
what operations can be maintained, what initiatives can be undertaken, and what strategic goals
are attainable in the upcoming fiscal years. While the actual fee collections, along with spending
ceilings set through the appropriations process, ultimately dictate what the agency can and
cannot spend in a given fiscal year, the forecasts set the expectations and are critical to avoiding
overly ambitious spending plans. Therefore, having strong controls over the forecasting segment
of this process—ones that inform stakeholders about the uncertainties of the forecasts and
attempt to minimize the eventual variance between projected and actual fee collections—can
                                                            
5
    A claim is the portion of a patent that establishes the legal boundaries of the invention (that is, the exclusive rights
    of the owner). Patent claims, written in a formal style and precise terminology, serve as the basis for any
    determination of patent infringement.

                                                               6 
 
U.S. Department of Commerce                                                 Final Report OIG-11-014-A
Office of Inspector General                                                         December 14, 2010


provide a more realistic framework from which operational and strategic planning can be based,
including plans to address the backlog and pendency of patent applications.
USPTO does not have a disciplined, documented, and replicable process that reconciles and
improves its forecasting processes to the greatest extent possible from prior variances between
forecast and actual fee collections. In each of the four fiscal years we reviewed, USPTO fee
collections were less than projected. While the agency monitors incoming fee collections in
executing its budget during a given fiscal year and adjusts planned spending accordingly,
planned spending reductions were necessary each year because collections were less than
forecast. Further, while USPTO provided a monthly spending and performance report to agency
management during the period covered by our review, which included projected and actual fee
collections, this important report did not include the ranges of possible fee collections or
information on the underlying assumptions about the collections. Such relevant information was
added to the monthly reports beginning in February 2010.

During the time of our review, USPTO’s patent application backlog grew, as did the length of
time it takes the agency to make a decision on a patent application. From FY 2006 through FY
2009, the number of patent applications waiting to be examined increased from about 701,000 to
nearly 736,000. The average amount of time required to make a decision on a patent application
also increased, from about 31 months in FY 2006 to about 35 months in FY 2009. More
transparent forecasts, including the assumptions and uncertainties about revenue streams, may
not have directly affected USPTO’s ability to address these challenges; however, they would
have provided internal and external stakeholders with more realistic expectations of what could
and could not be accomplished. As USPTO implements its new strategic plan, a framework that
recognizes the risks associated with possible variances in patent fee collection forecasts is all the
more important as cost proposals are developed to implement strategic initiatives.



Conclusion and Recommendations
Patent fee projections play a vital role in developing and executing USPTO’s budget and
spending plans, calling for a disciplined, documented, and transparent process for forecasting
these collections. Without an effective process that clearly outlines the assumptions and
resulting uncertainties associated with the projections, USPTO risks not being able to implement
much-needed initiatives and other improvements to operations because actual collections are
much less than forecast. In order to strengthen USPTO operations over its patent fee forecasting,
we recommend that the Under Secretary for Intellectual Property:

1. Direct the USPTO Chief Financial Officer to establish and implement written policies and
   procedures for developing fee collection forecasts, including policies and procedures for
       defining roles and responsibilities for the models;
       documenting and retaining, for a sufficient period of time, formulas, data, data sources,
        assumptions, and other underlying components used for patent fee forecasts;
       adequate recording of the impact of policy, economic, regulatory, or other changes on
        patent fee collection;


                                                  7 
 
U.S. Department of Commerce                                               Final Report OIG-11-014-A
Office of Inspector General                                                       December 14, 2010


       monitoring, reconciling, and analyzing assumptions used in projections, and actual data
        when they become available; and
       assessing periodically the patent fee forecasting models, including discussions of possible
        emerging trends and USPTO’s plans to address these trends within the patent fee
        forecasting models.

2. Require the Chief Financial Officer to report annually on the variances between projected
   and actual specific patent fee collections, including the potential causes for significant
   variances and possible trends to consider. Because of the many patent fees USPTO collects,
   the agency should consider focusing on those fees that make up a significant portion of
   USPTO’s patent fee collections. The agency could report this information in public
   documents such as its annual Performance and Accountability Report or the President’s
   budget, as it did for the fiscal year 2011 budget.

3. Direct the Commissioner for Patents to establish and implement written policies and
   procedures for the patent production model for
       defining roles and responsibilities for the model;
       documenting and retaining, for a sufficient period of time, the formulas, data, data
        sources, assumptions, and other underlying components used for the patent production
        model;
       adequately recording the impact of policy or other changes on the patent production
        model;
       monitoring, reconciling, and analyzing assumptions used in projections, and actual data
        when they become available; and
       assessing periodically the patent production model, including periodic external reviews
        and validation, discussions of possible emerging trends, and USPTO’s plans to address
        these trends within the patent production model.




Summary of USPTO Comments and OIG Response

In its official response to our draft report, dated November 19, 2010, USPTO concurred with our
recommendations and outlined steps it has begun to take to strengthen its patent fee forecasting
operations. Separately, USPTO provided technical comments, which have been addressed in the
report as appropriate. USPTO also notes that its aggregate fee forecasts have been within
acceptable ranges with the exception of FY 2009. However, our analysis shows that in prior
years, USPTO has consistently over- or underestimated some of its major patent fee revenue
streams, raising concerns that significant variances and trends were not being addressed in the
patent fee forecasting models. We reaffirm our findings and recommendations. Strengthened
management controls over patent fee forecasting activities should provide increased
accountability and transparency over these critical operations. The full USPTO response is
included as Appendix C of this report.
 

                                                 8 
 
U.S. Department of Commerce                                                           Final Report OIG-11-014-A
Office of Inspector General                                                                   December 14, 2010


                                           Appendix A: Scope and Methodology
We conducted this performance audit from August 2009 through August 2010 at USPTO in
Alexandria, Virginia. Our work covered FY 2006–2009. To assess the process for projecting
patent fee collections and processes for budget development, execution, and monitoring of
expenses for patent operations, we completed the following tasks:
             interviewed USPTO officials to obtain an understanding of the organizational structure,
              the budget development and execution process, the various offices involved in patent fee
              forecasting and budget development, and each office’s relevant policies and procedures;
             obtained and analyzed data on patent fee projections and actual collections for FYs 2006
              through 2009 to determine the extent of variances between projected and actual patent fee
              collections;
             reviewed annual USPTO Performance and Accountability Reports, President’s budget
              submissions, and other documents related to its mission and goals; and
             analyzed USPTO’s spending adjustments for each fiscal year and obtained
              documentation on these adjustments and their impact on the agency’s mission and patent
              goals.

We obtained an understanding of internal controls for the patent fee forecasting process by
interviewing staff involved in this process as well as reviewing the data and systems used. We
reviewed USPTO compliance with applicable provisions of pertinent laws and regulations,
including various PTO-related laws and the GAO Standards for Internal Control in the Federal
Government. 6 Our audit identified internal control deficiencies, which are discussed in this
report; it did not identify any instances of fraud, illegal acts, violations, or abuse.
With regard to data reliability, we relied on prior independent audit work on USPTO’s Revenue
Accounting and Management System and on its Momentum System. These systems serve as the
sources for fee collection reports and monthly spending and performance reports. We determined
that the actual patent fee collections data for FYs 2006 through 2009, and the spending
adjustments made in those years, were sufficiently reliable for the purposes of this audit.
We conducted this performance audit under authority of the Inspector General Act of 1978, as
amended; Department Organization Order 10–13 (dated August 31, 2006), as amended; and in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                                            
6
    Standards for Internal Control in the Federal Government (the Green Book), U.S. Government Accountability
    Office (AIMD-00-21.3.1, November 1, 1999).

                                                               9 
 
U.S. Department of Commerce                                                                      Final Report OIG-11-014-A
Office of Inspector General                                                                              December 14, 2010


                               Appendix B:
      Differences between Projected and Actual Patent Fee Collections
                for USPTO’s Three Largest Fee Categories
USPTO charges approximately 250 individual fees for its various activities related to examining,
issuing, and maintaining patents. It classifies the individual patent fees into 12 broad categories
(see figure 4). Three of the 12 categories contain a total of 104 distinct patent fees; these three
categories account for over 75
percent of the agency’s annual patent
fee collections. The agency uses                  Figure 4. Fiscal Year 2009 Patent
multiple variables, formulas, factors,                       Fee Collections
and models to project the amounts it
expects to collect from each of these                                         Maintenance Fees
fees.
We reviewed eight patent fees from                                                                 Application Filing 
the three patent fee categories that                                       9%                      Fees
                                                                     7%
account for the majority of USPTO’s
                                                                   8%               33%            Patent Issue Fees
patent fee collections, documenting
the differences between projected and
actual collections. We examined the                                 15%                            Patent Extension 
underlying models, assumptions, and                                           28%                  Fees
variables used, and discussed with
USPTO staff the possible reasons for                                                               Patent 
                                                                                                   Cooperation Treaty 
the differences. In addition, we
                                                                                                   Fees
discussed the availability of any                                                                  Sum of Remaining 
written analysis addressing these                                                                  Seven Patent Fee 
differences. This appendix contains                                                                Categories
descriptions of the eight fees we                              Source: OIG based on USPTO data
reviewed and accompanying data.



Patent Maintenance Fees
In order to keep a patent in force, patent holders must pay maintenance fees to USPTO at set
intervals after the patent is issued. These fees, if paid, are due in 3.5, 7.5, and 11.5 years (referred
to as first- , second- , and third-stage maintenance fees, respectively). The patent maintenance fee
category contains 15 fees related to the three different time frames, large and small entities,7 and
late payments.
We selected for further review the three maintenance fees for large entities (fee codes 1551,
1552, and 1553). Since FY 2006, USPTO has annually collected $437 million–$510 million

                                                            
7
    Small entity status is granted to an individual inventor, a nonprofit organization, or a small business that meets the
    size standards set forth in 13 CFR §§121.801-.805 to be eligible for reduced patent fees. 

                                                                   10 
 
U.S. Department of Commerce                                                 Final Report OIG-11-014-A
Office of Inspector General                                                         December 14, 2010


from these three fees, and they account for approximately 90 percent of the total patent
maintenance fees collected each year.


                 Table 1. First Stage Maintenance Fee (Fee Code 1551)
                          Projected                                       Dollar
      Fiscal            Collections         Actual Collections    Difference (in   Percentage
      Year             (in millions)              (in millions)        millions)    Difference
      2006                  $106.96                    $107.92             $0.96          0.9%
      2007                   112.18                     112.63              0.45          0.4%
      2008                   113.96                     105.31            (8.65)         -7.6%
      2009                   107.99                       97.94          (10.05)         -9.3%
       Source: OIG analysis of USPTO data



                Table 2. Second Stage Maintenance Fee (Fee Code 1552)
                           Projected                                      Dollar
       Fiscal            Collections        Actual Collections    Difference (in   Percentage
       Year             (in millions)             (in millions)        millions)    Difference
       2006                  $176.46                   $182.76             $6.30          3.6%
       2007                   194.33                    202.96              8.63          4.4%
       2008                   215.83                    224.79              8.96          4.2%
       2009                   228.53                    205.86           (22.67)         -9.9%
       Source: OIG analysis of USPTO data




                 Table 3. Third Stage Maintenance Fee (Fee Code 1553)
                           Projected                                      Dollar
       Fiscal            Collections        Actual Collections    Difference (in   Percentage
       Year             (in millions)             (in millions)        millions)    Difference
       2006                  $146.37                   $145.94           ($0.43)         -0.3%
       2007                   150.93                    160.04              9.11          6.0%
       2008                   171.36                    180.39              9.03          5.3%
       2009                   179.50                    185.47              5.97          3.3%
       Source: OIG analysis of USPTO data




Patent Application Filing Fees
USPTO charges patent application filing fees for a variety of activities related to a patent
application. This broad category includes fees that address the attributes of a patent application,
such as the size of the application and the number of claims, as well as requests for continued
examination. The agency divides approximately 80 fees in this broad category between fees for
large and small entities.
We selected four of the 40 large-entity application fees for further review: search of utility patent
application (fee code 1111), independent claims in excess of three (fee code 1201), total claims
                                                 11 
 
U.S. Department of Commerce                                                Final Report OIG-11-014-A
Office of Inspector General                                                        December 14, 2010


in excess of 20 (fee code 1202), and request for continued examination (fee code 1801). We
selected these based on the dollar differences between the projected and actual fee collections
(whether positive or negative) and because large entities constituted over 80 percent of the total
patent application filing fees collected.


               Table 4. Search of Utility Patent Application (Fee Code 1111)
                                                                          Dollar
      Fiscal    Projected Collections       Actual Collections    Difference (in   Percentage
      Year               (in millions)            (in millions)        millions)    Difference
      2006                     $97.45                  $101.84             $4.39          4.5%
      2007                     113.85                   104.46            (9.39)         -8. 2%
      2008                     118.41                   105.75           (12.66)        -10.7%
      2009                     121.10                     99.44          (21.66)        -17.9%
       Source: OIG analysis of USPTO data




          Table 5. Independent Claims in Excess of Three (Fee Code 1201)
                          Projected                                       Dollar
      Fiscal            Collections         Actual Collections    Difference (in   Percentage
      Year             (in millions)              (in millions)        millions)    Difference
      2006                   $50.12                     $36.67          ($13.45)        -26.8%
      2007                     51.38                      34.96          (16.42)        -32.0%
      2008                     39.90                      31.15           (8.75)        -21.9%
      2009                     42.81                      26.34          (16.47)        -38.5%
       Source: OIG analysis of USPTO data




                  Table 6. Total Claims in Excess of 20 (Fee Code 1202)
                          Projected                                       Dollar
      Fiscal            Collections         Actual Collections    Difference (in   Percentage
      Year             (in millions)              (in millions)        millions)    Difference
      2006                   $81.67                     $52.49          ($29.18)        -35.7%
      2007                     80.77                      52.50          (28.27)        -35.0%
      2008                     59.30                      38.74          (20.56)        -34.7%
      2009                     58.45                      34.08          (24.37)        -41.7%
       Source: OIG analysis of USPTO data




                                                 12 
 
U.S. Department of Commerce                                                 Final Report OIG-11-014-A
Office of Inspector General                                                         December 14, 2010




               Table 7. Request for Continued Examination (Fee Code 1801)
                          Projected                                        Dollar
      Fiscal            Collections         Actual Collections     Difference (in   Percentage
      Year             (in millions)              (in millions)         millions)    Difference
      2006                   $32.98                     $46.82            $13.84          42.0%
      2007                     37.61                      54.48             16.87         44.9%
      2008                     56.69                      73.78             17.09         30.1%
      2009                     59.62                      92.41             32.79         55.0%
       Source: OIG analysis of USPTO data




Patent Issue Fees
The nine fees in this category relate to fees USPTO charges for issuing various types of patents
(for example, utility, plant, reissue, and design). We selected the utility issue fee (fee code 1501),
which USPTO charges for issuing a utility patent to a large entity. Large entities account for
about 87 percent of actual total patent issue fees collected for FY 2006–FY 2009, and fee code
1501 had the greatest dollar difference between projected and actual collections during this time.


                         Table 8. Utility Issue Fee (Fee Code 1501)
                          Projected                                        Dollar
      Fiscal            Collections         Actual Collections     Difference (in   Percentage
      Year             (in millions)              (in millions)     (in millions)    Difference
      2006                  $190.36                    $161.48           ($28.88)        -15.2%
      2007                   208.02                     169.94            (38.08)        -18.3%
      2008                   200.71                     176.32            (24.39)        -12.2%
      2009                   202.58                     203.08               0.50          0.2%
       Source: OIG analysis of USPTO data




                                                 13 
 
U.S. Department of Commerce                                                                                 Final Report OIG-11-014-A
Office of Inspector General                                                                                         December 14, 2010


                               Appendix C: Agency Response




                                  UNITED STATES PATENT AND TRADEMARK OFFICE
                                        UNDER SI;CRETARV OF COM~'ERCI: FOR JNTIlI.I.ECfUAL I'ROPERn' ANI)
                                        DIRECfOR OFTIlE UNITED STATES I'ATENT ASO TRAOEMMK OFFICE




                                                                                             NOV 1 9 LU;O



              MEMORANDUM FOR             Ronald Prevost, Ph.D.
                                         Assistant Inspector General for
                                         Economic and Statistical Program Assessment

              FROM:                      DavidJ. Kappos                  0t'?v-f, t~tbT
                                         Under Secretary          ofC~~:ce
                                                                         for Intellectua P operty..and
                                         Director of the United States Patent and Trad mark Office

              SUBJECT:                   Response to Draft Report No. OAE-19833,
                                         "Stronger Alanagemellt Controls Needed Over USPTO 's
                                         Projections ofPatelll Fee Collections" (September 2010)


              We appreciate the efforts of your statT in evaluating the process for projecting patent fcc
              collections at the United States Patcnt and Trademark Office (USPTO). We concur with the
              three recommendations in the draft report, and we have begun documenting the policies and
              procedures that we use for managing the patent production model and forecasting patent fee
              collections. We will also work to improve our annual reporting on patent fees by fonnally
              reporting potential causes for significant variances and trends to consider.              .

              The USPTO has a good track record of projecting its fees, and except for during the
              unprecedented recession in fiscal year 2009, has estimated patent fees within acceptable
              tolerance levels. As mentioned in your report, fee projections and actual collections are
              important data sets for managing the USPTO. My colleagues and I rely on the fee and patent
              production model infonnation produced at the USPTO to make critical management decisions.
              We are also keenly aware of the level of uncertainty associated with forecasting fees and
              routinely share our fee infonnation with the Department of Commerce, Office of Management
              and Budget, and Congress in an effort to continuously educate our partners on the flexibility
              necessary to accommodate the expected level of uncertainty.

              We had asked that the detailed technical comments provided to you in a separate transmittal be
              incorporated into your report. We understand that all of our comments will not be incorporated
              into the fir131 report, but we appreciate your efforts to address some of our concerns. Our
              response to each recommendation is discussed in detail below.




                                     PO. Box 1450, Alexandria, Virginia 22313-1450       -WV\oW.USPTD.GOV




                                                                     14 
 
U.S. Department of Commerce                                                                      Final Report OIG-11-014-A
Office of Inspector General                                                                              December 14, 2010




           •   IG Recommendation (I): Direct the Chief Financial Officer to establish and implement
               written policies and procedures for developing fee collection forecasts.

               USPTO Re>pollse: The agency agrees to establish and implement written policies and
               procedures for developing fee collection forecasts. Written policies and procedures will
               provide for continuity of operations and a record for the underlying components of forecasts,
               but they will not eliminate the risk of reducing or stopping initiatives or operational
               improvements during a fiscal year due to actual fee collections being less than the amount
               forecasted. The USPTO has begun implementing this recommendation and we are
               documenting roles, responsibilities and underlying components used with fee collection
               forecasts. This includes developing written policies and procedures for analysis and
               modeling activities that are currently in place, but not fully documented.

           •   /G Recommendation (2): Require the Chief Financial Officer to report annually on the
               variances between projected and actual specific patent fee collections, including the potential
               causes for significant variances and possible trends to consider.

               USPTO Respollse: The agency agrees to report annually on the variances between projected
               and actual specific patent fee collections, including potential causes for significant variances
               and possible trends to consider. As is noted in your report, we reported this information to
               the public in the fiscal year 2011 President's Budget. We will continue to assess the optimal
               public reporting vehicle for patent fee collections, including the appropriate level of detail.

           •   IG Recommendation (3): Direct the Commissioner of Patents to establish and implement
               written policies and procedures for the patent production model.

               USPTO Respollse: The agency agrees to establish and implement written policies and
               procedures for the patent production model. Like documenting fee forecasting procedures,
               these written policies and procedures will not eliminate the risk of reducing or stopping
               initiatives or operational improvements during a fiscal year when actual fee collections are
               less than the amount forecasted. The Agency started its documentation effort by launching
               an interactive patent pendency model (PPM) on the USPTO Web site in December 2009.
               The model, along with supporting documents defining the calculation fonnulas, inputs and
               outputs, can be found in the Patent statistics area of the USPTO Web site
               (www.uspto.gov/patents/stats/patentyrod_modeJ.jsp). The feedback from the public has
               been very positive and is being considered as we continue to enhance the model and increase
               transparency into our operations. We will improve upon our documentation effort by
               developing written policies and procedures that will provide for continuity of operations and
               a clear understanding of the underlying components of the model. We will document roles
               and responsibilities and develop the written policies and procedures for analysis and
               modeling activities that are currently in place, but not documented well.

           In summary, while our policies and procedures around the patent production model and fee
           forecasting operations are not documented completely, we are confident that our methodologies
           are sound. Again, we thank you for your efforts and we intend to implement the recommendations
           in a diligent manner. We hope to work with the OIG in the future to help the USPTO address the
           challenges we face in implementing a sustainable funding model for operations.




                                                            2
                                                                                                                       



       (OAE-19833)

                                                             15 
 
